APPENDIX
INDEX TO APPENDICES
Appendix A - NJ Supreme Court Denial of Review Dated Sept. 25, 2020
Appendix B — PA Order April 18, 2011 Order with DNA Attached by Court;
Appendix C - Opinion of Appellant Div. A-/227/228/1916
Appendix D - Trial Court Order November 17, 2014 -

19

APPENDIX

FILED, Clerk of the Supreme Court, 25 Sep 2020, 083576, SEALED

SUPREME COURT OF NEW JERSEY
C-71 September Term 2020
083576
L.C.,
Plaintiff,
v.
S.C.,
Defendant,
and
W.S.,
Defendant.
L.C.,
Plaintiff,
v.
S.C.,
Defendant,
and
W.S.,
Defendant.

ORDER

L.C.,
Plaintiff,
v.
S.C.,
Defendant,
and
W.S.,
Defendant.
R.S.,
Plaintiff,
v.
S.C.,
Defendant,
and
W.S.,
Defendant.

1

FILED, Clerk of the Supreme Court, 25 Sep 2020,083576, SEALED

A petition for certification of the judgment in A-0099/0227/0228/0229
15 and A-1916/2491-16 having been submitted to this Court, and the Court
having considered the same;
It is ORDERED that the petition for certification is denied.

WITNESS, the Honorable Stuart Rabner, Chief Justice, at Trenton, this
22nd day of September, 2020.

CLERK OF THE SUPREME COURT

2

APPENDIX

/

t

Caldwell & Kearns

James R. Cuppinger
James L. Goldsmith
Jeffrey T. McGuire*
Stanley J.A. Laskowski
Douglas K. Mahsico
Brett M. Wooobuhn
Michael D. Reed
Michael A, Farrell
Thomas M. Fraticelli
Gregory D. Geiss
Thomas S. Lee
Elizabeth H. Feather
Karen W. Milieu
Duiialas M. Orerholser

A PROFESSIONAL CORPORATION

OF COUNSEL
jAMES D. Campbell, is.
Charles J. Dehart, HI

ATTORNEYS AT LAW

HOMAf. D. Calowcli. }».

(1028-2001J

3631 NORTH FRONT STREET
HARRISBURG, PENNSYLVANIA 17110-1533

Carl G. Walls
(1937-201(1!

717-232-7661
FAX: 717-232-2766

• Richard l. KeakncRetireo

THEFIRM@CKLEGAL.NET
•BOARD CERTIFIED CIVIL TRIAL ADVOCATE

April 20, 201!

! illio Cole\
l> Patriot W alk
l’gg Harbor ! ownship. NJ 08234

Ms. Wanda Satterthwaiic
1312 North Derry Street
Apt. 204
Harrisburg, PA 17104
Re:

Satterthwaiic v. Graves
Dauphin County Docket No. 3053-DU-1995
PACSES No. 595000907

Dear Wanda and Lillie:
Rnclosed please lind the Order of Court. which the Judge has signed dis-estahlisL ng
paternity of Defendant Robert Graves regarding Rymir Satterthwaiic.
Should you have any questions or eoncerns. please do not hesitate to contact me
Very truly yours.

!:
f

!'■

;

't!

«...

Karen W. Miller
CAI DWS'I.I. & Kl'ARNS
KWM:nb
/Enclosure
I 1108-001'176225

\A. 1

Copies Distributed

/ /
/ /
!/

1
W AND A S ATTERTHW A i T E.
Plaintiff.

IN THECOURT "of COM\-1<5nH-F.AS
DAUPHIN COUNTY. PENNSYLVAN1

3053-DR-1W

NO.:

v.

C3

PAUSES: 505000907

O

— ZD

Civil.. ACTION - LAW

ROBERT GRAVES.
Defendant.

£:
3;

c:
-e

a
:-r —C.

ORDER PRCOIIRT
AND NOW. this [$

r

C:

. 201 i. upon consideration ot the v\ :un

da> of ./VX/^r ....

S csting of Caldwell & Kearns, it is i reby
Motion to Dis-F.siahlish Paternity and or lor Genetic
it\ of the minor child is dis-established; the Sup :rt
ORDERED AND DECREED that paicmit>
stricken: wage attachmei is
Order captioned above is vacated and terminated: arrearages are
is directed to return any funds that ma; ■>e
vacated: and Dauphin County Domestic Relations
held relating to the minor child. Rymire A. Satterthumie.

BY THE COURT:
O

J.—iSi. •

Distribution list:
Karen W. Miller.

/•*
}

t

‘J

7

(
A/ V t\
__ f

1
//

f

Si

DNA Test Report

^Services
rti ofAmerica
Seeking the truth when It matters mesU

DNA Diagnostics Center
115611
DDC is accredited/certified by AABB, CAP, ACLASS-International, ISO/IEC 17025, CLIA, NYSDOH & ASCLD/LAB-International.

Case 8021788
Name

CHILD
Rymir A. Satterthwaite

Alleged FATHER
Robert A. Graves
Black

Race
Date Collected
Test No.
Locus

PI

3/10/2011

3/7/2011

8021788-20

8021788-30

Allele Sizes

Allele Sizes

D3S1358

0.00

15

17

14

TH01

1.29

7

8

7

16

D21S11

0.00

30.2

32.2

30

D18S51

3.15

14

17

17

Penta E

0.00

11

12

7

9

D5S818

0.00

12

8

13

D13S317

0.00

11

12

13

35

D7S820

0.00

10

11

8

9

D16S539

1.18

9

12

9

11

CSF1PO

0.91

8

12

10

12

Penta D

1.41

9

13

9

10

vWA

3.60

15

19

16

19

D8S1179

0.00

13

16

14

11

8

10

21

26

X

Y

TPOX

0.00

9

FGA

0.00

22

Amelogenin

X

Y

Interpretation:

RN: 337066

Combined Paternity Index:

0

Probability of Paternity: 0%

The alleged father is excluded as the biological father of the tested child. This conclusion is based on the non-matching
alleles observed at the loci listed above with a PI equal to 0. The alleged father lacks the genetic markers that must be
contributed to the child by the biological father. The probability of paternity is 0%.
Subscribed

3 #

on March 16,2011

1, the undersigned Laboratory Director, verify that the
interpretation of the results is correct as reported on 3/16/2011.

♦s

F

GleriHa R^StwllL,-

N#y pua^iaEggs^y

My Commissfdj^Kxp^f Orf^bfer 4,2013

■t 1-513-881-7800

Michael L. Baird, Ph.D.
Marco Scarpetta, Ph.D.

One DDC Wav. Fairfield. OH 45014

U.S.A.

Thomas M. Reid, Ph.D.
Richard Chmelo, PhD.

DNAcenter.rom

APPENDIX

RECORD IMPOUNDED
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not "constitute precedent or be binding upon any court." Although it is posted on the
internet, this opinion is binding only on the parties in the case and its use in other cases is limited. R. 1:36-3.

SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NOS. A-0099-15T2
A-0227-15T2
A-0228-15T2
A-0229-15T2
A-1916-16T2
A-2491-16T2
L.C.,
Plaintiff,
v.
S.C.,
Defendant-Respondent,
and
W.S.,
Defendant-Appellant.
L.C.,
Plaintiff-Appellant,
v.
S.C.,

Defendant-Respondent,
and
W.S.,
Defendant.
L.C.,
Plaintiff-Appellant,
v.
S.C.,
Defendant-Respondent,
and
W.S.,
Defendant-Appellant.
R.S.,
Plaintiff-Appellant,
v.
S.C.,
Defendant-Respondent,
and

2

A-0099-15T2

w.s.
Defendant-Appel lant.
Argued (A-0099-15/A-0227-15/A-1916-16) January
17, 2019 and (A-0228-15/A-0229-15/A-2491-16)
February 14, 2019 - Decided August 14, 2019
Before Judges Simonelli, O'Connor and Whipple.
On appeal from the Superior Court of New Jersey,
Chancery Division, Family Part, Camden County,
Docket Nos. FD-04-2874-12 and FD-04-0186-14.
L.C., appellant, argued the cause pro se in A-0227-15,
A-0228-15 and A-1916-16.
R.S., appellant, argued the cause pro se in A-0228-15,
A-0229-15 and A-2491-16.
W.S., appellant pro se in A-0099-15 and A-2491-16.
Kenneth L. Winters argued the cause for respondent
(Jardim Meisner & Susser PC and Fisher Family Law
LLC, attorneys; Kenneth L. Winters and Lise A. Fisher,
on the briefs).
PER CURIAM
This matter has a long and tortious history marked by the frivolous and
vexatious filings of appellants L.C., R.S. and W.S.1 in their pursuit to compel

i

W.S. is R.S.'s biological mother. We shall sometimes collectively refer to
W.S., R.S. and L.C. as appellants.
3

A-0099-15T2

genetic testing of respondent S.C. to determine the paternity of R.S. and by their
blatant violation of orders sealing the record pursuant to NJ.S.A. 9:17-42 and
Rule 5:3-2.
R.S. and W.S. lived in Pennsylvania when this saga began, Over nine
years ago, the Pennsylvania Court of Common Pleas of Philadelphia County,
Family Division (Court of Common Pleas) issued the first of two orders denying
W.S.'s petitions to compel genetic testing of S.C. to determine the paternity of
R.S., which the Superior Court of Pennsylvania2 upheld. Impermissibly forum
shopping, appellants pursued the matter in New Jersey.
In R.S. v. S.C.. No. A-1185-13 and No. A-2102-14 (App. Div. Mar. 8,
2017)3 and L.C. v. S.C.. No A-1817-14 (App. Div. Mar. 8, 2017), we addressed
the paternity and genetic testing issues on the merits and affirmed the dismissal
of paternity complaints filed here. We held that appellants' repetitive efforts to
compel genetic testing of S.C., denied by the Pennsylvania courts, was barred
by the Full Faith and Credit Clause of the United States Constitution, U.S. Const.
art. IV, § 1, the doctrines of subject matter jurisdiction, judicial comity, res

2 The Superior Court of Pennsylvania is one of two statewide intermediate
appellate courts.
3 W.S. was also an appellant in R.S. v. S.C.
4

A-0099-1ST2

judicata and collateral estoppel, and the paternity issue could not be re-litigated
in New Jersey. We rejected R.S.'s argument, which he reiterates in his present
appeals, that the Pennsylvania orders did not prohibit him from filing a
complaint in New Jersey because he was a minor at the time and was not a party
to the Pennsylvania paternity action.

We also rejected appellants'

unsubstantiated fraud claims, which they reiterate in their present appeals.
Our Supreme Court denied certification.

L.C. v. S.C.. 231 N.J. 297

(2017); R.S. v. S.C., 231 N.J. 425 (2017). Accordingly, we will not address
appellants' arguments relating to that part of the July 17, 2015 Family Part order
dismissing frivolous complaints to vacate the Pennsylvania orders and compel
genetic testing of S.C. See Park Crest Cleaners. LLC v. A Plus Cleaners &
Alterations Corn.. 458 N.J. Super. 465,472-73 (App. Div. 2019) (this court will
not address trial court rulings that were cognizable in and dispensed with in a
prior appeal); Washington Commons LLC v. City of Jersey City, 416 N.J. Super.
555, 564 (App. Div. 2010) ("[I]f an issue ... has been determined on the merits
in a prior appeal it cannot be re-litigated in a later appeal of the same case, even
if of constitutional dimension.").
We will not address L.C.'s and R.S.'s arguments relating to the May 1,
2015 Family Part order imposing attorney's fees sanctions against them for

5

A-0099-15T2

violating orders entered on August 13, 2012 and August 2, 2013, sealing the
record in the paternity actions. They did not file their appeal from that order
until June 22, 2016. Thus, the appeal is untimely.

2:4-1.

We will not address R.S.'s arguments relating to the May 13, 2016 order
reducing the attorney's fees sanctions imposed against him to judgment. R.S.
did not designate this order in his notice of appeal. "[I]t is only the judgments
or orders or parts thereof designated in the notice of appeal which are subject to
the appeal process and review." Pressler & Verniero, Current N.J. Court Rules,
cmt. 6.1 on Ri2:5-l(eXl) (2019); see also 1266 Apt. Corp. v. New Horizon Deli,
Inc.. 368 N.J. Super. 456, 459 (App. Div. 2004). For the same reason, we will
not address R.S.'s arguments relating to the June 8, 2017 and June 30, 2017
orders imposing attorney's fees sanctions against him,4 or R.S.'s and W.S.'s
arguments relating to the January 17, 2017 order reducing the attorney's fees
sanctions to judgment.

4 In addition to not including the June 30, 2017 order in his notice of appeal,
R.S. did not provide the trial court record relating to this order, in violation of
Rule 2:5-4(a). This deficiency prohibits a review of his challenge to the order,
leaving us no alternative but to affirm. Cipala v. Lincoln Tech. Inst., 179 N.J.
45, 55 (2004); Soc'v Hill Condo. Ass'n.. Inc, v. Soc'v Hill Assocs., 347 N.J.
Super. 163, 177-78 (App. Div. 2002).
6

A-0099-15T2

We also will not address appellants' arguments relating to any other order
from which they appeal. We have considered appellants' arguments relating to
those other orders in light of the record and applicable legal principles and
conclude they are without sufficient merit to warrant discussion in a written
opinion. IU 2:11-3(e)(1)(E). We limit our review to the trial court's imposition
of attorney's fees sanctions against appellants pursuant to Rule 1:4-8 and Rule
1:10-3.
I.
We are compelled to recite the history of this matter in detail in order to
place the attorney's fees sanctions in perspective.
R.S. was born in 1993. W.S. identified R.G. as R.S.'s biological father
and obtained a child support order against him from the Court of Common Pleas.
Seventeen years later, as R.S. approached the age of majority, and after S.C. had
become a famous celebrity, W.S. disavowed R.G.'s parentage and claimed S.C.
was her son's biological father. W.S. filed a petition in the Court of Common
Pleas to compel genetic testing of S.C. and R.G. to determine the paternity of
R.S.
In a July 16, 2010 order, the Court of Common Pleas dismissed W.S.'s
petitions. Under Pennsylvania law, the entry of a court order for support of a

7

A-0099-15T2

child determines the issue of paternity and collaterally estops the party who
sought the support order from later raising the paternity issue against and
seeking genetic testing of a putative parent. See Barr v. Bartolo. 927 A.2d 635,
639-40 (Pa. Super. Ct. 2007). Thus, W.S. was estopped from seeking genetic
testing of S.C. as a matter of law. W.S. did not appeal.
Eight months later, W.S. filed a second petition in the Court of Common
Pleas, again seeking genetic testing of S.C. In a May 19, 2011 order, the court
dismissed the petition holding: "Matter is res judicata. A final order was entered
July 16, 2010 on this matter, and [W.S.] did not appeal said order."
W.S. did not appeal. Instead, she teamed up with L.C., a New Jersey
resident, and designated L.C. as R.S.'s custodian. L.C. filed a complaint against
S.C. and W.S. in the Family Part, Atlantic County, for custody of R.S. and to
compel genetic testing of S.C. to establish the paternity of R.S.
In two July 26, 2011 orders, the court granted L.C. custody of R.S., but
dismissed her complaint, finding jurisdiction regarding paternity remained in
Pennsylvania. The court subsequently transferred the matter to the Family Part,
Camden County, after L.C. and R.S. moved to that county.
L.C. also intervened in the Pennsylvania matter, and she and W.S. filed
motions to vacate the July 16, 2010 and May 19, 2011 orders of the Court of

8

A-0099-15T2

Common Pleas denying genetic testing of S.C. (the Pennsylvania orders). In a
June 14, 2012 order, the Court of Common Pleas vacated the Pennsylvania
orders and relinquished jurisdiction over the paternity issue because R.S. had
reached the age of majority. S.C. appealed.
Four days later, L.C. filed a complaint against S.C. in the Family Part,
Camden County, as R.S.'s "[gjodmother/guardian" to compel genetic testing of
S.C., even though R.S. was now an adult. In an August 13, 2012 order, the court
closed the proceedings to the public and sealed the record pursuant to N.J.S.A.
9:17-42 and Rule 5:3-2. L.C., her attorney and W.S. were present at the hearing
on August 13, 2012 when the court made clear the statute mandated closure of
the proceedings and that all court records in the case are confidential. In
addition, the order clearly stated it was entered pursuant to the statute and rule.
L.C. and W.S. did not appeal.
In a second August 13, 2012 order, the court dismissed L.C.'s complaint
for lack of personal jurisdiction over S.C. The court also found the case was
subject to the Uniform Interstate Family Support Act (Act), N.J.S.A. 2A:430.124 to -30.201, and New Jersey is obligated to recognize the continuing
jurisdiction of a tribunal of another State that issued a child support or paternity

9

A-0099-15T2

order pursuant to the Act, which was the case here. Because S.C. had a pending
appeal in Pennsylvania, the court concluded it lacked subject matter jurisdiction.
L.C. filed a motion for reconsideration of the second August 13, 2012
order, which the court denied in a December 14, 2012 order.

The court

determined L.C. failed to satisfy the standard for reconsideration and reiterated
it lacked subject matter jurisdiction and personal jurisdiction over S.C.
On April 23, 2013, the Superior Court of Pennsylvania reversed the June
14, 2012 order of the Court of Common Pleas, effectively reinstating the two
Pennsylvania orders denying genetic testing of S.C. L.C. and W.S. did not
appeal. Thus, the Pennsylvania orders were final. This should have ended the
matter, as the Family Part had ruled three times that it lacked subject matter
jurisdiction. However, appellants continued litigating in New Jersey, where
they filed frivolous complaints and motions and blatantly violated the sealing
orders.
For example, R.S. filed a paternity complaint against S.C. and W.S. in the
Family Part, Camden County, to compel genetic testing of S.C. He asserted,
with no legal basis, that the Pennsylvania orders did not prohibit his lawsuit
because he was a minor at the time and not a party to the Pennsylvania action.
We rejected that assertion. R.S.. slip op. at 6.

10

A-0099-15T2

In an August 2, 2013 order, the court closed the proceedings to the public
and sealed the record.

The order clearly stated it was entered pursuant to

NJ.S.A. 9:17-42 and Rule 5:3-2.
In a September 11, 2013 order, the court denied R.S.'s motion to compel
genetic testing of S.C. and dismissed his complaint. The court determined the
April 23, 2013 order of the Superior Court of Pennsylvania effectively
reestablished the Pennsylvania orders declaring the denial of genetic testing as
res judicata and must be afforded full faith and credit. The court reasoned:
The action in [Pennsylvania] involves the same parties,
the same issues and must be afforded full faith and
credit by the State of New Jersey. The [c]ourt cannot
permit the parties to forum shop until finding a result
that is satisfactory to them. The "caretaker" [L.C.] filed
a petition for paternity against [S.C.] in Atlantic
County, in the State of New Jersey and that was denied,
stating that Pennsylvania has jurisdiction in the matter.
If the determination was made in Atlantic County that
Pennsylvania retained jurisdiction of this matter,
[Camden County] has no reason to contradict the
decision made in Atlantic County.
R.S. appealed, and we affirmed. R.S., slip op. at 12.
In September 2014, W.S. filed a motion to vacate the September 11, 2013
order, and L.C. filed a motion to vacate the August 13, 2012 order dismissing
her complaint. In a November 17, 2014 order, the court denied W.S.'s motion
finding the court lacked jurisdiction to vacate an order pending on appeal
11

A-0099-15T2

pursuant to Rule 2:9-1(a) and identical issues were before the Appellate
Division. W.S. appealed, and we affirmed. R.S.. slip op. at 2, 8.
In a separate November 17, 2014 order, the court denied L.C.'s motion.
The court again found it lacked subject matter jurisdiction and personal
jurisdiction over S.C. and was bound by the prior August 13, 2012 Atlantic
County Family Part order holding same. The court also held that even if it had
jurisdiction, the issues raised were fully litigated in Pennsylvania, and thus were
barred by the doctrines of res judicata and collateral estoppel. The court also
determined it was bound by and required to give full faith and credit to the
Pennsylvania orders. L.C. appealed, and we affirmed. L.C.. slip op. at 5.
L.C. and R.S. subsequently filed a complaint against S.C. and his
attorneys in the Law Division alleging various intentional torts, fraud and
perjury with respect to the paternity matters. The complaint was not filed under
seal and it recited information and included copies of the court record in the
paternity matters that were subject to the sealing orders. After the complaint
was filed, the National Enquirer published an article about the paternity matter
and reported information and events that could only have come from the Law
Division complaint. In addition, the New York Daily News published articles
about the lawsuit that included direct quotes from L.C. about the paternity

12

A-0099-15T2

matters. In a February 19, 2015 order, the court sealed the record in the Law
Division action.
While the Law Division action was pending, appellants filed an
application in the Court of Commons Pleas to set aside the Pennsylvania orders.
On February 13, 2015, the court denied the application finding the Pennsylvania
Superior Court had reversed the court's order vacating the Pennsylvania orders
and reinstated them. L.C. and R.S. ignored this result and, without any legal
basis, jointly filed a complaint and motion in the Family Part, Camden County,
to set aside the Pennsylvania orders.
Prior to disposition of the motion, S.C. filed a motion in aid of litigant's
rights seeking sanctions against L.C. and R.S. for violating the sealing orders by
not filing the Law Division complaint under seal. In a May 1, 2015 order, the
court found L.C. and R.S. had violated the sealing orders and ordered them to
pay an attorney's fees sanction of $1000 pursuant to Rule 1:10-3.5 The court
determined the sanction was an appropriate coercive sanction consistent with
the violation.

5 All of the attorney's fees awarded to S.C. throughout this matter were a small
portion of the amounts he had requested.
13

A-0099-15T2

L.C. and R.S. filed a motion for reconsideration of the May 1, 2015 order
and sought $15,000 in costs for "harassment."

S.C. filed various motions

including a motion for frivolous litigation sanctions pursuant to Rule 1:4-8 for
attorney's fees he incurred in responding to the motion for reconsideration and
the complaint and motion to set aside the Pennsylvania orders.
In opposition, to S.C.'s motion for frivolous litigation sanctions, L.C.
claimed that at a November 17, 2014 hearing, the court instructed her to file an
application to vacate the Pennsylvania orders. However, the transcript of that
proceeding did not support her claim. Rather, the transcript confirmed the court
specifically stated that New Jersey courts were bound by the decisions of the
Pennsylvania courts and were required to give full faith and credit to those
decisions.
In a July 17, 2015 order, the court denied L.C.'s and R.S.'s motion for
reconsideration.

The court found they failed to satisfy the standard for

reconsideration and improperly raised new arguments and presented evidence,
which, even if relevant and probative, they could have presented on the original
motion. The court also found there was no legal or factual basis for awarding
$15,000 for harassment and ordered L.C. and R.S. to pay $1500 for the attorney's
fees S.C. incurred in responding to the motion.

14

A-0099-15T2

In a separate July 17, 2015 order, the court denied the motion to set aside
the Pennsylvania orders and dismissed the complaint. The court granted S.C.'s
motion for frivolous litigation sanctions and ordered L.C. and R.S. to pay $5000
for attorney's fees S.C. incurred in responding to the complaint and motion. The
court again found the Pennsylvania courts had determined the issue of genetic
testing, the Pennsylvania orders were final and must be afforded full faith and
credit, res judicata applied, New Jersey could not set aside the orders, and New
Jersey lacked subject matter jurisdiction.

The court noted appellants’ had

unsuccessfully raised the subject matter jurisdiction several times and
emphasized there was no legal, factual, or rational basis for the complaint. The
court concluded the complaint and motion was vexatious, legally frivolous,
without any merit whatsoever, and warranted a frivolous litigation sanction.
This did not deter L.C., as she subsequently filed a motion to reconstruct
the record of the November 17, 2014 hearing claiming the transcript was
incomplete because it omitted the court's instruction to file an application to set
aside the Pennsylvania orders.

However, the court reporter certified the

transcript as complete and L.C. acknowledged the court reporter advised that
she checked her records and found nothing missing from the transcript. L.C.

15

A-0099-15T2

also acknowledged that court personnel examined the transcript and the original
CourtSmart audio recording and found the transcript was complete.6
In a November 17, 2015 order, the court denied L.C.'s motion to
reconstruct the record. The court found the motion was vexatious and frivolous
and ordered her to pay $3,468.75 for attorney's fees S.C. incurred in responding
to the motion. The court determined the transcript of the November 17, 2014
hearing was a complete statement of the entire proceeding, a transcriber certified
the transcript was complete, and the audio recording verified the transcript was
complete. The court concluded there was no credible evidence the transcript
was incomplete, no basis whatsoever to grant the motion, and the level of L.C.'s
conduct in filing the motion was so egregious as to warrant frivolous litigation
sanctions.
L.C. persisted and filed a motion to stay the November 17, 2015 order. In
its discretion, the court denied oral argument, finding L.C. merely reiterated
arguments the court already found lacked any legal or factual basis.7 In a

6 Our review of the audio recording does not support L.C.'s claim that the
transcript was incomplete.
7 We find no fault in the judge's decision to deny oral argument. The court may
deny oral argument where, such as here, the motion is made for the purpose of
abusing the judicial system and other parties, see Kozak v. Kozak. 280 N.J.
16

A-0099-15T2

February 12, 2016 order, the court denied L.C.'s motion and ordered her to pay
$1500 for attorney's fees S.C. incurred in responding to the motion. The court
incorporated its findings on L.C.'s motion to reconstruct the record and
determined she failed to provide any legal or factual basis for a stay. The court
concluded L.C.'s motion for a stay was frivolous, vexatious and harassing in
nature, warranting the imposition of frivolous litigation sanctions "to deter
future frivolous and improperly motivated applications to the [c]ourt, and to
hold [L.C.] accountable for her actions."
This did not stop appellants. In April 2016, W.S. posted a self-made video
on the Internet in which she revealed the existence of the paternity actions
against S.C., identified S.C. by name, and disclosed statements W.S. alleged
S.C.'s attorney made in the courtroom on August 13, 2012. On May 6, 2016,
this video disseminated on Radaronline.com. 8
S.C. filed an order to show cause to compel W.S. to remove the video
from the Internet and for sanctions for violating the sealing orders.

W.S.

appeared pro se by telephone at the hearing on the order to show cause. She

Super. 272 (Ch. Div. 1994), or when the motion fails to properly present
substantive issues for court determination. Palombi v. Palombi, 414 N.J. Super.
274, 285-86, 288 (App. Div. 2010).
8

Radaronline.com is an entertainment and celebrity gossip website.
17

A-0099-15T2

admitted, under oath, that she was a party to L.C.'s paternity action, was in court
on August 13, 2012 when the court sealed the record, and knew the record was
sealed and she was not to talk about or disseminate any information about this
case to anyone. She also admitted she nevertheless made and disseminated the
video to support R.S. in his paternity action.
In a May 26, 2016 order, the court ordered W.S. to immediately remove
or authorize the removal of the video from the Internet. The court found W.S.
was aware the matter was under seal and knowingly and intentionally violated
the August 13, 2012 sealing order by posting the video on the Internet. The
court ordered W.S. to pay $1,687.50 for attorney's fees S.C. incurred for the
order to show cause "as a result of a blatant violations of the [c]ourt's [o]rder
sealing the record."
The court re-heard the matter on June 28, 2016, after W.S. claimed she
was unable to participate fully in the prior hearing. Now represented by an
attorney, W.S. argued she did not violate the August 13, 2012 sealing order
because sealing a record means only that the press cannot obtain information or
documents from the court and there was no "gag order" or injunction prohibiting
her from speaking publicly about the case.

18

A-0099-15T2

The court rejected this meritless argument emphasizing that the clear
intent and purpose of the sealing orders, which the court reiterated on the record
numerous times throughout the proceedings, was to prohibit dissemination of
any documents or information and any discussion about the case in public, and
W.S. admitted she knew this. In a June 28, 2016 order, the court incorporated
the May 26, 2016 order, reaffirmed the meaning and effect of the sealing orders,
and held:
[t]he parties are prohibited from causing this matter to
be discussed with or publicized by others . . . and are
prohibited from disseminating documents and
information to third parties and the press and/or causing
others to discuss and/or release to the press or third
parties information and documentation regarding the
matters and proceedings in this action and in the related
action ....
Undeterred, appellants thereafter sought a certified copy of the audio
recording of the November 17, 2014 hearing, again claiming the transcript was
incomplete. The Deputy Clerk for Appellate Administration sent R.S. and W.S.
a CD of the audio recording of the hearing and certified the CD contained "a
true and unaltered copy of the original court event that was recorded on
November 17, 2014

. ." Appellants gave a copy of the CD to a clerk at a

United Parcel Service (UPS) store for "analysis." The UPS clerk wrote to the

19

A-0099-15T2

Acting Administrative Director of the Courts indicating he had reviewed "the
entire contents of the CD[,]" meaning he had actually listened to it.
Upon learning of this, S.C. filed two motions in aid of litigant's rights, one
against L.C. and W.S. for violating the August 13, 2012 sealing order, and the
other against W.S. and R.S. for violating the August 2, 2013 sealing order.
In separate December 20, 2016 orders, the court granted the motions. The
court emphasized there was a pattern of violating the sealing orders and
appellants' conduct in disseminating the CD to the UPS clerk was a clear and
blatant violation of those orders. The court ordered L.C. and W.S. to pay $1875
and W.S. and R.S. to pay $3375 for attorney's fees S.C. incurred in filing the
motions. These appeals followed.
II.
W.S. challenges the May 26, 2016 order imposing attorney's fees
sanctions against her for violating the August 13, 2012 sealing order by posting
her self-made video on the Internet. She argues she was not a party to the sealing
order and committed no violation because N.J.S.A. 9:17-42 only prohibits
disclosure of physical records to the public.
W.S. also challenges the December 20, 2016 order imposing attorney's
fees sanctions against her for violating the sealing orders by disseminating the

20

A-0099-15T2

CD of the November 17, 2014 hearing to the UPS clerk. She argues the sealing
orders only prohibited the parties from disseminating information to third parties
and the UPS clerk was a computer expert, not a third party. L.C. and R.S. also
challenge the December 20, 2016 order, arguing they were not involved in the
dissemination of the CD to the UPS clerk.
The court entered the attorney's fees sanctions under to Rule 1:10-3, which
"allows any litigant to invoke relief in aid of a judgment or order of a court." In
re Daniels, 118 N.J. 51, 60 (1990). The purpose of the rule "is to provide a
mechanism, coercive in nature, to afford relief to a litigant who has not received
what a [cjourt [ojrder or [jjudgment entitles that litigant to receive." D'Atria v.
D'Atria, 242 N.J. Super. 392, 407 (Ch. Div. 1990) (discussing R, 1:10-5, later
amalgamated with JL 1:10-3). A court may thus order monetary sanctions or
equitable relief under Rule 1:10-3, "related to the litigant’s damages" and not
"primarily punitive in naturef,]" id;, at 408, or an award of counsel fees "to be
paid by any party to the action to a party accorded relief under this rule." R.
1:10-3. Thus, pursuant to the rule, "a party who willfully fails to comply with
an order or judgment entitling his adversary to litigant's rights is properly
charged with his adversary's enforcement expenses."

Pressler & Verniero,

Current N.J. Court Rules, cmt. 4.4.5 on R. 1:10-3 (2019).

21

A-0099-15T2

i

We "review a trial court's order enforcing litigant's rights pursuant to Rule
1:10-3 under an abuse of discretion standard." Wear v. Selective Ins. Cch, 455
NJ. Super. 440, 458 (App. Div. 2018). An abuse of discretion "only arises on
demonstration of'manifest error or injusticef,]'" Hisenaj v. Kuehner, 194 N.J. 6,
20 (2008) (quoting State v. Torres, 183 N.J. 554, 572 (2005)), and occurs when
the trial judge's "decision is 'made without a rational explanation, inexplicably
departed from established policies, or rested on an impermissible basis. '" Milne
v. Goldenberg. 428 N.J. Super. 184, 197 (App. Div. 2012) (quoting Flagg_w
Essex Ctv. Prosecutor, 171 N.J. 561, 571 (2002)). We discern no abuse of
discretion here.
Rule 5:3-2(b) permits the court to seal the court record in Family Part
matters. Court records include "any information maintained by a court in any
form in connection with a case or judicial proceeding, including but not limited
to pleadings, motions, briefs and their respective attachments, [and] evidentiary
exhibits[.]" R. 1:38-2(a)(l) (emphasis added). ■
N.J.S.A. 9:17-42 mandates the closure of the proceedings and sealing of
the court record in paternity actions:
Notwithstanding any other law concerning public
hearings and records, any action or proceeding held
under this act shall be held in closed court without
admittance of any person other than those necessary to
22

A-0099-15T2

admitted she was aware of the sealing orders and that she could not disclose any
information pertaining to the paternity matters to anyone, She violated the
sealing orders by disseminating information about the paternity matters and
revealing S.C.'s identity in the self-made video she posted on the Internet for the
world to see.
It is clear to us from the record that appellants acted in concert throughout
these proceedings. Thus, L.C.'s and R.S.'s claim that they were not involved in
the dissemination of the CD to the UPS clerk lacks credibility. Thus, appellants'
dissemination of the CD to the UPS clerk without the consent of the court and
S.C. or a court order was a blatant violation of the sealing orders.
Appellants' egregious violation of the sealing orders warranted the
imposition of attorney's fees sanctions under Rule 1:10-3. We are satisfied that
the amounts awarded and reduction of the unpaid sanctions to judgment was
more than justified, amply supported by the record, and does not amount to an
abuse of discretion.

Appellants' arguments to the contrary have no merit

whatsoever and warrant no further discussion.
III.
L.C. and R.S. appeal from the July 17, 2015 order imposing a $5000
attorney's fees sanction for their complaint and motion to set aside the

24

A-0099-15T2

Pennsylvania orders. L.C. also appeals from the November 17, 2015 order
imposing a $3,468.75 attorney's fees sanction for her motion to reconstruct the
record of the November 17, 2014 hearing, and the February 12, 2016 order
imposing a $1500 attorney's fees sanction for her motion to stay the November
17, 2015 order.
The court imposed the sanctions against L.C. and R.S. under Ruje l:4-8.9
We review the court's decision on a motion for frivolous litigation sanctions
under an abuse of discretion standard. McDaniel v. Man Wai Lee, 419 N.J.
Super. 482, 498 (App. Div. 2011). Reversal is warranted "only if [the decision]
'was not premised upon consideration of all relevant factors, was based upon
consideration of irrelevant or inappropriate factors, or amounts to a clear error
in judgment.'" Ibid, (quoting Masone v. Levine, 382 N.J. Super. 181, 193 (App.
Div. 2005)). We discern no error here.
Rule 1:4-8 attorney's fees sanctions "are specifically designed to deter the
filing or pursuit of frivolous litigation[.]" LoBiondo v. Schwartz, 199 N.J. 62,
98 (2009). A second purpose of the rule is to compensate the opposing party in
defending against frivolous litigation. Toll Bros.. Inc, v. Twp. of W,. Windsor,

9 The record reveals that S.C. complied with the procedural and substantive
requirements of the Rule 1:4-8.
25

A-0099-15T2

190 N.J. 61, 71 (2007), The court may impose sanctions where an attorney or
pro se party filed a pleading or motion with an improper purpose, such as to
harass or to cause unnecessary delay or needless increase in the cost of litigation;
the claims or other legal contentions were not warranted by existing law or by a
non-frivolous argument for the extension, modification, or reversal of existing
law or the establishment of new law; and the factual allegations have no
evidentiary support. IU l:4-8(a)(l) to (3). Further, we have held a claim is
frivolous when "no rational argument can be advanced in its support, or it is not
supported by any credible evidence, or it is completely untenable." Noren v.
Heartland Payment Svs.. Inc., 448 N.J. Super. 486, 498 (App. Div. 2017)
(quoting United Hearts, L.L.C. v. Zahabian, 407 N.J. Super. 379, 389 (2009)).
"Where a party has [a] reasonable and good faith belief in the merit of the
cause, attorney's fees will not be awarded." First Atl. Fed. Credit Union v.
Perez. 391 N.J. Super. 419, 432 (App. Div. 2007). Sanctions are warranted
"only when the pleading as a whole is frivolous or of a harassing nature[.]"
Iannone v. McHale. 245 N.J. Super. 17, 32 (App. Div. 1990) (quoting Romero
v. City of Pomona, 883 F.2d 1418, 1429 (9th Cir. 1989)).
There was no legal basis whatsoever, let alone a reasonable and good faith
basis, for L.C.’s and R.S.'s complaint to set aside the Pennsylvania orders. The

26

A-0099-15T2

complaint was barred by the Full Faith and Credit Clause and the doctrines of
subject matter jurisdiction, judicial comity: res judicata and collateral estoppel.
Moreover, the court never instructed L.C. or R.S. to file an application to set
aside the Pennsylvania orders.
Nor was there any reasonable or good faith basis for L.C.'s motion to
reconstruct the record of the November 17, 2014 hearing, or her motion to stay
the November 17, 2015 order imposing a $3,468.75 attorney's fees sanction for
that motion.

We agree with the trial court, and our review of the record

confirms, that these motions were frivolous, egregious, vexatious and harassing
in nature, and warranted the imposition of frivolous litigation sanctions.
To the extent we have not specifically addressed any of appellants'
remaining arguments, we conclude they are without sufficient merit to warrant
discussion in a written opinion. IL 2:1 l-3(e)(l)(E).
We make one final comment. The court record in these appeals are sealed
and the court records in the Family Part and Law Division matters remain sealed.
Any dissemination of any court records or any information pertaining to these
matters to anyone without the required consent or court order shall result in the
imposition of sanctions against the violator as determined by the court.
Affirmed.

I hereby certify that the foregoing
is a true copy of the original on
file in my office.
CLERK OF THE API

27

VTE DIVISION

A-0099-15T2

r

APPENDIX

1
i

REDACTED

